   AUDIT OF THE METRO NORTH
 REGIONAL EMPLOYMENT BOARD
H-1B TECHNICAL SKILLS TRAINING
  GRANT NUMBER AH-11085-01-60
   NOVEMBER 15, 2000 THROUGH
       DECEMBER 31, 2001




                    U.S. DEPARTMENT OF LABOR
                    OFFICE OF INSPECTOR GENERAL

                    REPORT NO.: 02-02-212-03-390
                    DATE: September 26, 2002
                                            TABLE OF CONTENTS



ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY ............................................................................................................1

INTRODUCTION

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.         PROGRAM IMPLEMENTATION .........................................................................6

          II.        PROGRAM OUTCOMES .......................................................................................7

          III.       REPORTED OUTLAYS .......................................................................................10

APPENDIX

          METRO NORTH REB’S RESPONSE TO DRAFT REPORT.........................................11
                    ACRONYMS


ACWIA   American Competitiveness and Workforce Improvement Act

E3 O    Electrical/Electronic Engineering Occupations

MCC     Middlesex Community College

NECC    Northern Essex Community College (MCC)

OMB     Office of Management and Budget

REB     Metro North Regional Employment Board

USDOL   U.S. Department of Labor

UML     University of Massachusetts at Lowell

WIA     Workforce Investment Act




                            - i-
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted an audit of the
Metro North Regional Employment Board’s (REB) H-1B technical skills training grant for the
interim period November 15, 2000 through December 31, 2001. The overall audit objective was
to evaluate if the REB was meeting the intent of the H-1B Technical Skills Training Program and
the requirements of its grant. The subobjectives were to determine if:

       •   The project had been implemented as stated in the grant.

       •   Program outcomes were measured, achieved, and reported.

       •   Reported costs were reasonable, allocable, and allowable in accordance with
           applicable Federal regulations, and Office of Management and Budget (OMB)
           Circulars A-122, Cost Principles for Non-Profit Organizations and A-21, Cost
           Principles for Educational Institutions.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded the REB $2,372,522, for the period November 15, 2000 through
November 14, 2002, to train semi-skilled incumbent workers of Lucent Technologies and
AMETEK Aerospace to meet corporate needs for at least 430 skilled electrical/electronic
technicians, testers and engineers.

AUDIT R ESULTS

As of December 31, 2001, the REB had implemented a training project that served the target
population. Additionally, the REB reported outlays in accordance with applicable Federal
regulations and cost principles.

However, the project was adversely affected when Lucent, the predominant corporate partner,
decided to outsource its work to contractors and lay off Lucent workers in June 2001. In
response, the grant was modified in November 2001, and the REB refocused the project to
include laid off Lucent employees and provide more-transferable credentials. Nevertheless, the
REB needs to make additional changes to fully meet outcome goals and ensure sustainability.

Outcome Goals

   •   There were no wage gains and promotions because Lucent had eliminated the career level
       jobs. Also, AMETEK participants had not progressed far enough in the training program
       to achieve wage gains and promotions.

   •   While the REB was meeting enrollment goals, the project was not meeting goals for
       completion and credential attainment. Lucent layoffs were responsible for 53 percent of


                                              -1-
       the participants dropping out (172 of 324) of the certificate training before completion
       and for 57 percent of training completers (80 of 141) not taking the exam to attain the
       Lucent tester certificate. Because AMETEK’s training was delayed, no participants had
       completed the certificate training or enrolled in the associate degree training.

   •   To address the affects of Lucent’s downsizing, the grant modification expanded the target
       group of incumbent workers to include recently laid off workers. However, the grant
       modification did not similarly modify outcome goals to more relevant outcomes, such as
       placements, replacement wages and job retention.

Sustainability

   •   The grant relied on corporate resources to ensure training continued after the grant ended.
       Project sustainability became doubtful when Lucent, the predominate corporate partner,
       laid off most of the Merrimack Valley work force and eliminated Electrical/Electronic
       Engineering Occupations (E3 O) career ladder jobs.

REB’S RESPONSE TO DRAFT R EPORT

In response to our draft report, the Executive Director of the REB stated that REB officials were
in substantial agreement with our findings. The Executive Director also noted the difficult and
unforeseen circumstances of plant layoffs and the eventual plant closing and stated that she
believes the project continues to meet both the obligations and the intent of its grant.

Excerpts of REB’s response to the draft report have been incorporated into appropriate sections
of the report. The response is included in its entirety as an Appendix.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensures that the REB
addresses issues regarding project sustainability, and develops appropriate outcome measures to
fully evaluate the changed program.




                                              -2-
                                             INTRODUCTION


                      The American Competitiveness and Workforce Improvement Act of 1998
      BACKGROUND      (ACWIA) was enacted to help employed and unemployed U.S. workers
                      acquire technical skills for occupations that are in demand and being filled
by H-1B visa holders. The H-1B visa program allows employers to temporarily employ foreign
workers on a nonimmigrant basis to work in specialized jobs not filled by U.S. workers
(8 U.S.C.1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on employers for H-1B
applications. ACWIA provides that over half of that fee be used to finance the H-1B Technical
Skills Training Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act and Title I-D of the Workforce Investment Act
(WIA). As of March 31, 2002, USDOL conducted 4 rounds of grant competition and awarded
60 grants totaling approximately $143 million.

                          Grant         Solicitation          Number              Award
                          Round             Date             of Grants           Amount
                            1         August 16, 1999             9             $12,383,995
                            2         March 29, 2000             12             $29,166,757
                            3         August 1, 2000             22             $54,000,000
                            4         April 13, 2001             17             $47,559,7611
                                           Totals                60            $143,110,513

In the third round, the REB was awarded $2,372,522 under Grant Number AH-11085-01-60 for
the period November 15, 2000 through November 14, 2002. The REB proposed and agreed to
train semi-skilled, union employees of Lucent Technologies and AMETEK Aerospace in E3 O to
meet company needs for higher skilled electrical and electronic technicians, testers and
engineers. The project targeted approximately 2,700 Lucent and 280 AMETEK employees. The
project offered two levels of E3 O skills training, college certificate and associate degree levels,
which were comparable but separate at Lucent and AMETEK. The project also offered refresher
courses in math and English on an as needed basis.

The REB administered the project and the University of Massachusetts at Lowell (UML)
managed it. Northern Essex Community College (NECC) and Middlesex Community College
(MCC) provided classroom training for Lucent and AMETEK employees, respectively. Lucent
and AMETEK provided the grant match by paying employee salaries for at least half of the time
spent in training.

Lucent training was unfavorably affected when corporate management decided to outsource
manufacturing the products whose construction requires the skills provided by this H-1B grant.
Lucent’s first of several rounds of mass layoffs began June 2001, and reduced promotional

1
    As of March 31, 2002, Round 4 was still an open solicitation with an additional $87 million available.


                                                          -3-
opportunities for trained workers. The grant was modified in November 2001 to include laid off
Lucent workers and provide more-transferable credentials.

   •   Originally, the REB planned for two industry-recognized Lucent certifications to be
       awarded for Lucent training. Later, the REB added an Electronic Equipment Technology
       Certificate from NECC to provide greater job mobility for Lucent participants.

   •   AMETEK originally planned for one credential, an Associate in Science degree from
       MCC upon successful completion of both levels of training. The REB redesigned the
       courses given by MCC so that after completing the first level, participants would obtain
       an Electronic Telecommunications Systems Certificate.

The REB is a private, not-for-profit organization under section 501(c)(3) of the Internal Revenue
Code. The REB serves as the region’s workforce investment board under WIA and administers
Federal and state workforce initiatives for the local area. Previously, the REB served as the
Private Industry Council under the Job Training Partnership Act.

                      The overall audit objective was to evaluate if the REB was meeting the
       AUDIT          intent of the H-1B Technical Skills Training Program and the
   OBJECTIVES         requirements of its grant. The subobjectives were to determine if:

       •   The project had been implemented as stated in the grant.

       •   Program outcomes were measured, achieved and reported.

       •   Reported costs were reasonable, allocable and allowable in accordance with
           applicable Federal regulations and OMB Circulars A-122, Cost Principles for
           Non-Profit Organizations and A-21, Cost Principles for Educational
           Institutions.

                       The interim audit period was from November 15, 2000 through
 AUDIT SCOPE AND       December 31, 2001. In performing this audit, we reviewed the
  M ETHODOLOGY         Solicitation for Grant Applications and the grant agreement to determine
                       the requirements and performance measures of the grant. We interviewed
staff at the REB, the UML Research Foundation, and the UML Labor Extension Program, as
well as site coordinators and instructors at Lucent and AMETEK. We examined participant
records and reviewed other materials related to project implementation. We made onsite visits to
Lucent and AMETEK to observe training in progress.

We audited cumulative net outlays of $1,363,388, consisting of the Federal share of $777,685
and third party in-kind contributions of $585,703, claimed on the Financial Status Report for the
period ending December 31, 2001. We traced expenditures to general ledgers and examined
supporting documentation including vouchers and invoices. Judgmental sampling was used to
test individual account transactions and balances. We tested outlays of $543,222 or 70 percent
of reported Federal outlays.



                                              -4-
We considered the REB’s internal controls over the H-1B grant project by obtaining an
understanding of the grantee’s internal controls, determining whether these internal controls had
been placed in operation, assessing control risk, and performing tests of controls. Our purpose
was to determine the nature and extent of testing needed to satisfy our audit objectives, not to
provide assurances on the internal controls; therefore, we do not provide any such assurances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of the
REB. We performed tests of compliance with certain provisions of laws, regulations, and the
grant to evaluate if the REB was meeting the requirements of the grant and that reported costs
were allocable in accordance with applicable Federal regulations and OMB circulars. However,
our objective was not to provide an opinion on overall compliance with such provisions and,
accordingly, we do not express such an opinion. We examined compliance with grant
requirements and program outcome goals using the Solicitation for Grant Applications and the
grant agreement. We evaluated allowability of claimed costs using relevant criteria including:
ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-Profit
Organizations; OMB Circular A-21, Cost Principles for Educational Institutions; and the
requirements of the grant.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests, as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from April 1, 2002 through
April 19, 2002, at the REB located in Malden, Massachusetts, and at UML located in Lowell,
Massachusetts. We visited the training facilities on April 17, 2002, at Lucent Technologies in
North Andover, Massachusetts, and AMETEK Aerospace in Wilmington, Massachusetts. We
conducted an exit conference with the REB on August 16, 2002.




                                               -5-
                     FINDINGS AND RECOMMENDATIONS


I.        PROGRAM IMPLEMENTATION

The Solicitation for Grant Applications states:

         “The primary emphasis of the ACWIA technical skills training will be to focus on
          employed and unemployed workers who can be trained and placed directly in the
          highly skilled H-1B occupations. . . .

         “Although the primary focus of these awards is technical skill training, ETA
          intends that regional partnerships sustain themselves over the long term – well
          after the federal [sic] resources from this initiative have been exhausted.”

As of December 31, 2001, the REB had implemented a training project that served the target
population. However, the training project was adversely affected by Lucent corporate
management decisions to contract out most of its work, which undermined project sustainability.

                      The project provided training in E3 O consistent with grant requirements.
    TRAINING          NECC and MCC provided classroom training for Lucent and AMETEK
    PROVIDED          employees, respectively. The project offered two levels of E3 O skills
                      training, certificate and associate degree levels, and refresher courses in
math and English as needed.

The target population was incumbent and recently laid off employees of Lucent’s Merrimack
Valley facility, and incumbent AMETEK employees. The workers were also members of the
Communication Workers of America (Lucent) and the International Union of Electrical workers
(AMETEK). As of December 31, 2001, laid off workers represented 59 percent (306 of 523) of
program participants.

                        The grant relied on corporate resources to ensure training continued for
         PROJECT        incumbent workers after the grant ended. When Lucent, the predominant
  SUSTAINABILITY corporate partner, laid off most of the Merrimack Valley work force and
                        eliminated E3 O career ladder jobs, project sustainability became doubtful
as Lucent is not likely to continue to participate after the grant. The REB needs to:

     •    identify resources for training laid off workers after the grant ends; and

     •    coordinate with new key partners (i.e., contract manufacturers who now do the
          manufacturing previously done by Lucent) to ensure that training meets employer needs.




                                                  -6-
REB’S RESPONSE

The REB indicated that it has worked closely with unions, the Merrimack Valley REB,
its Advisory Board, and the National Emergency Grant to ensure the sustainability of the
project. The REB also stated that the contract manufacturer had agreed, subsequent to
our audit period, to both the benefit of H1-B training and to the paid work-release
commitments.

OIG’S COMMENTS

While the National Emergency Grant will enable the REB to continue training and employment
services for the laid off workers not hired by the contract manufacturer, those grants are of a
limited duration and will only sustain the program temporarily.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training ensures that the REB
addresses issues regarding project sustainability.


II.    PROGRAM OUTCOMES

According to the grant, the intent of the project was to train semi-skilled incumbent workers to
obtain higher- level skills and move into H-1B occupations at Lucent and AMETEK. The grant
summarized program outcomes as follows:

       The project increases wages, offers credits and certification, provides job
       upgrades and promotions and enhances all around job security for workers.

Overall, participants received training, college credits and were working toward certification and
associate degrees. However, as of December 31, 2001, there were no increased wages and
promotions because Lucent’s downsizing efforts eliminated E3 O career ladder jobs.

To address the affects of Lucent’s downsizing, the November 2001 grant modification expanded
the target group of incumbent workers to include recently laid off workers. However, the grant
modification did not similarly modify outcome goals to adequately measure project
achievements.

                       The grant established outcome goals for wage gains and promotions, and
      O UTCOME         for training enrollment, completion, and credential attainment. As of
  ACHIEVEMENT          December 31, 2001, the REB will not meet wage gains and promotions
                       due to Lucent’s downsizing. Moreover, while the REB was meeting
enrollment goals, the project was not meeting other training goals for E3 O skill training.




                                               -7-
Wage Gains and Promotions

The grant planned for 345 participants (321 from Lucent and 24 from AMETEK) to receive
wage gains and promotions at completion of certificate and associate degree training. However,
as of December 31, 2001, there were no promotions or wage gains.

     Lucent

     As a result of downsizing, 306 of the 523 program participants were laid off. Lucent had
     promoted 60 participants prior to the layoff, but tho se promotions were provisional and
     were lost when layoffs began. Because of corporate downsizing, the REB did not expect a
     meaningful number of participants to be promoted at Lucent. The grant-planned outcome
     for wage gains and promotions will not be met since Lucent participants represented 93
     percent of the grant goal.

     AMETEK

     As of December 31, 2001, AMETEK participants had not progressed far enough in the
     training program to achieve wage gains and promotions.

Training Goals

The grant planned for at least 430 participants to receive E3 O skill training. As summarized in
the table below, the REB was meeting enrollment goals but not other training goals for E3 O skill
training. Lucent downsizing resulted in high drop out rates for training. The AMETEK training
implementation was delayed, so participants had not yet progressed to associate degree training.

                                              Lucent                     AMETEK
              Training Goals                      Actual                      Actual
                                      Planned                      Planned
                                               Number Rate                 Number Rate
     Certificate Training
     Participants Enrolled               400          324   81%       30        27     90%
     Completion Rate                      80%         141   44%       80%        0      0%
     Rate of Training Completers
        Attaining Credentials             80%         48    34%      ---       ---      ---
     Associate Degree Training
     Participants Enrolled                60          58    97%       10         0       0
     Completed Training and
         Attained Degree                  80%          0    0%        80%        0       0%




                                                -8-
     Lucent

     Lucent layoffs were responsible for 53 percent of the participants dropping out (172 of
     324) of the certificate training before completion and for 57 percent of training completers
     (80 of 141) not taking the exam to attain the Lucent tester certificate. To compensate for
     layoffs at Lucent and the resulting low number of completers taking the Lucent exam, the
     REB worked with Northern Essex Community College to provide training resulting in a
     college certificate for active participants who complete an additional course along with the
     original training.

     The new college certificate was added as a credential as of the November 2001 grant
     modification. As of December 31, 2001, 49 Lucent participants were active in the program
     and could take the expanded training to earn the automatic college certification. The
     attained credential rate would increase from 34 percent (48 of 141) to 51 percent (97 of
     190), provided that all 49 active participants successfully complete the training.

     AMETEK

     The AMETEK training was significantly delayed with the first training class held in the
     Fall of 2001. The November 2001 grant modification allowed participants to double up on
     training. However, due to its late start, no AMETEK participants had yet completed the
     certificate training or had enrolled in the associate degree training.

                      The grant required that the REB submit quarterly progress reports on
  M EASUREMENT        project performance. 29 CFR 95.51(d)(1) states that performance reports
  AND R EPORTS
                      should contain:

       A comparison of actual accomplishments with the goals and objectives
       established for the period . . .

The REB collected in its databases the information needed to report required outcome goals
except for wage gains and promotions, because Lucent’s downsizing eliminated the career
ladder. To address the affects of Lucent’s downsizing, the grant modification expanded the
target group of incumbent workers to include recently laid off workers. However, the grant
modification did not similarly modify outcome goals to adequately measure project
achievements. The REB should have replaced outcome goals for Lucent incumbent workers
with outcome goals for Lucent dislocated workers, such as training related placement,
replacement wage, and retention.

Moreover, the REB’s performance reports focused on quarterly statistics and did not provide
sufficient cumulative information to gauge how well the project was meeting its overall goals.
The REB reported course completions but did not report training level completions, which is the
goal under the grant.




                                              -9-
REB’S RESPONSE

       The REB stated that it has submitted a request for further modification of its grant,
        broadening the scope of training to include additional H-1B occupations. REB
        believes these adjustments will allow it to meet at least 90 percent of the original
        outcomes goal.

OIG’S COMMENTS

The REB’s response did not address developing outcome goals for laid off participants and
reporting all required outcomes.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensures that the REB:

   •    develops outcome goals such as placement, placement wage, retention and follow-up for
        participants laid off from Lucent; and

   •    reports all grant required outcomes such as Training Level completions.


III.    REPORTED OUTLAYS

The REB claimed cumulative net outlays of $1,363,388, consisting of the Federal share of
$777,685 and third party in-kind contributions of $585,703 on the Financial Status Report for the
period ending December 31, 2001. There are no questioned costs in this report.




                                                - 10 -
- 11 -
- 12 -
- 13 -
- 14 -
